<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES FOR 2015</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


 
                         MILITARY CONSTRUCTION, VETERANS 
                      AFFAIRS, AND RELATED AGENCIES FOR 2015 

                                  -------

                                          WEDNESDAY, FEBRUARY 26, 2014. 


                  QUALITY OF LIFE IN THE MILITARY 

                             WITNESSES 

SERGEANT MAJOR RAYMOND F. CHANDLER, III, UNITED STATES 
  ARMY 
MASTER CHIEF PETTY OFFICER MICHAEL D. STEVENS, UNITED 
  STATES NAVY 
SERGEANT MAJOR MICHEAL P. BARRETT, UNITED STATES MARINE 
  CORPS 
CHIEF MASTER SERGEANT JAMES A. CODY, UNITED STATES AIR 
FORCE 


                       CHAIRMAN CULBERSON OPENING STATEMENT 

Mr. CULBERSON. Good morning. I want to welcome everyone here to 
today's hearing on military quality of life for our servicemembers. 
Really one of the most important things that we do is to ensure the 
peace of mind of our men and women in uni�form. It is an extraordinary 
privilege for me to serve as chairman of this Committee, but I really 
feel like a Co-Chairman because this Committee is--there are no party 
labels or distinctions; we are all here on behalf of our constituents 
to do everything we can to support our men and women in uniform. 
  What a privilege it is for me to serve with our Co-Chairman, Sanford 
Bishop, and the work that he has done over the years on this 
subcommittee has been a great asset to me, as I still sort of feel like 
the new kid on the block here, with this immense responsibility we have 
to look after the men and women in uniform. 
  And, Sanford, you have been a great role model to me and a great, 
tremendous help as we have worked together over the last several years 
on this Committee. 
  Delighted to have David Price of North Carolina working with us, as 
well, with his experience and knowledge of the issues that involve 
quality of life for our military. 
  I also want to welcome our new members of the subcommittee: 
Congressman David Valadao of California, and Congresswoman Martha Roby 
of Alabama. Congressman Valadao represents the 21st district of 
California, an agricultural area, and we are looking forward to helping 
him do everything we can to make sure they get plenty of water in his 
part of the country. 
  So we know how vital that is to the economy in your area, and also 
vital to the rest of us in the country when we go shopping. 

[TEXT NOT AVAILABLE REFER TO PDF]

(1) 


</pre></body></html>
